                    Federal Communications Commission
                               Washington



OFFICE OF INSPECTOR GENERAL

MEMORANDUM


     DATE:             April 26, 2002

REPLY TO
 ATTN OF:              Inspector General

 SUBJECT:              Semiannual Report

         TO:           Chairman

In compliance with Section 5 of the Inspector General Act, as amended, 5 U.S.C.
App. 3, § 5, I respectfully submit the Office of Inspector General (OIG)
Semiannual Report summarizing the activities and accomplishments of the OIG
during the six-month period ending March 31, 2002. In accordance with Section 5
(b) of the Act, this Semiannual Report along with the report that you as head of the
agency prepares, should be forwarded to the appropriate Congressional oversight
committees within 30 days of your receipt of this report.

During this reporting period, as in the previous one, OIG activity continued to
focus on the Universal Service Fund activities because of continuing allegations of
waste and fraud, and the results of beneficiary audits performed by contract
auditors and Commission staff. Our efforts in this area have been summarized in a
special section of this report entitled “Oversight of the Universal Service Fund.”

Also, during the reporting period, the Office continued in its efforts related to the
audit of the Commission’s financial statement, its information systems, its
contractors, and the welfare and safety of its employees.

Investigative personnel continued to address investigative issues referred to and
developed by this office. Where appropriate, investigative reports have been
forwarded to management for action.
This office remains focused upon providing our customers with the highest
possible level of professionalism and quality through our audits, investigations,
and consultations.



                                      H. Walker Feaster, III
                                      Inspector General

Enclosure

cc: Chief of Staff
    Managing Director
          Table of Contents
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Oversight of the Universal Service Fund . . . . . . . 2

Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
    Financial Statement Audit . . . . . . . . . . . . . 10
    Performance Audits . . . . . . . . . . . . . . . . . . . . 11
    Work-in-Process . . . . . . . . . . . . . . . . . . . . . . . 17

Specific Reporting Requirements of the
Inspector General Act . . . . . . . . . . . . . . . . . . . . 20

Table I.
    OIG Audit Reports With Questioned
    Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

Table II.
    OIG Audit Reports With Recommendations
    That Funds Be Put To Better Use . . . . . . . . 23

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

Legislation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

IG Hotline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                                      i
                      Introduction
The Federal Communications Commission (FCC) is an independent regulatory
agency exercising authority delegated to it by Congress under the Communications
Act of 1934 as amended by the Telecommunications Act of 1996. The FCC is
charged with regulating interstate and international communications by radio,
television, wire, satellite and cable. The FCC’s jurisdiction covers the fifty states, the
District of Columbia, and U.S. possessions. The mandate of the FCC under the
Communications Act is to make available to all people of the United States a rapid,
efficient, nationwide, and worldwide wire and radio communication service. The
FCC performs four major functions to fulfill this charge:

◊ Spectrum allocation;
◊ Creating rules to promote fair competition and protect consumers where required
  by market conditions;
◊ Authorization of service; and
◊ Enforcement.

The Chairman and four Commissioners are appointed by the President and
confirmed by the Senate.
Michael Powell was designated as Chairman on January 22, 2001. Kathleen Q.
Abernathy, Michael J. Copps, and Kevin J. Martin serve as Commissioners. One seat
is vacant. The majority of FCC employees are located in Washington, D.C. FCC field
offices and resident agents are located throughout the United States. FCC
headquarters staff are located in the Portals II building located at 445 12th Street, S.
W., Washington, D.C. 20554.

The Office of Inspector General (OIG) has dedicated itself to assisting the
Commission as it continues to improve its efficiency and effectiveness. The
Inspector General (IG) H. Walker Feaster III, reports directly to the Chairman. The
OIG staff consists of ten professionals and a student intern. Principal assistants to
the IG are: Thomas D. Bennett, Assistant Inspector General (AIG) for Audits,
Charles J. Willoughby, AIG for Investigations; and Thomas M. Holleran, AIG for
Policy & Planning. Mr. Willoughby also serves as counsel.
This semiannual report includes the major accomplishments and general activities of
the OIG during the period October 1, 2001 through March 31, 2002.

                                           1
        Oversight of the Universal Service
                   Fund (USF)
During this semi-annual reporting period, the Office of Inspector General has
devoted considerable resources to oversight of the Universal Service Fund (USF).
Our efforts have included review of the fund as part of our audit of the
Commission’s fiscal year 2001 financial statement, audit support to several on-
going criminal investigations related to possible program fraud, and the design and
implementation of a comprehensive oversight program. I am pleased to report
that we have made a great deal of progress. For example, we are conducting audits
of 26 program beneficiaries with OIG staff and auditors detailed to OIG from
other Commission bureaus. However, although we have made progress in
ensuring adequate oversight of the USF, obstacles to the successful
implementation of our oversight program remain.

Background Information

A regulatory “universal service fund” was established in 1983 to help keep
telephone rates reasonable in high cost areas. Prior to 1983, universal service was
accomplished through AT&T's internal rate structure. Until 1996, the regulatory
fund provided support to incumbent local exchange carriers that provided service
to low income consumers or areas where the cost of providing service was high. In
the Telecommunications Act of 1996, Congress provided for a federal universal
service program to support service for rural health care providers and schools and
libraries, as well as low income consumers and high cost communities. Pursuant to
the Telecommunications Act of 1996, the statutorily based USF is funded through
contributions from all telecommunications companies in the United States,
including local and long distance phone companies, wireless and paging companies
and payphone providers. Although not required to do so by the government,
many carriers choose to pass the cost of their contribution onto their customers in
the form of billed charges, frequently referring to the charges as the “Federal
Universal Service Fee” or the “Universal Connectivity Fee.” The Universal Service
Administrative Company (USAC) administers the USF under the direction of the
FCC.

The OIG first significantly looked at the USF as part of our audit of the
Commission’s fiscal year 1999 financial statement when the USF was determined
to be part of the FCC’s reporting entity for financial statement reporting for the
first time. During that audit, we questioned the Commission regarding the nature
of the USF and, specifically, whether it was subject to the statutory and regulatory
requirements for federal funds. Starting with that inquiry, we have examined


                                       2
         Oversight of the Universal Service
                    Fund (USF)

other facets of the program and have continued to expand our role in program
oversight. Throughout this process, we have been mindful of our authority and
our responsibilities under the Inspector General Act. From the beginning, it has
been our position that the universal services program is a federal program and
that oversight of the program is the responsibility of the Office of Inspector
General.

Due to the materiality and audit risks of the program, we have focused our
interest on the USF mechanism for funding telecommunications and advanced
services for schools and libraries, also known as the “Schools and Libraries
Program” or the “E-Rate” program. The Schools and Libraries Program was
created on May 7, 1997 when the Commission adopted a Universal Service Order
implementing the Telecommunications Act of 1996. The Order was designed to
ensure that all eligible schools and libraries have affordable access to modern
communications and information services. Up to $2.25 billion annually is
available to provide eligible schools and libraries with discounts for authorized
services. Eligible schools and libraries may receive discounts on eligible
telecommunication services ranging from 20 percent to 90 percent, depending on
economic need and location (urban or rural). The level of discount is based upon
the percentage of students eligible for the National School Lunch Program or
other federally approved alternative mechanisms contained in the Improving
America’s Schools Act. Libraries use the discount percentage of the school
district in which they are located. Discounts can be applied to commercially
available telecommunications services, Internet access, and internal connections.
Eligible services range from basic local and long distance telephone services and
Internet access services to the acquisition and installation of equipment for
providing internal connections to telecommunications and information services.
Over 30,000 applications were submitted during each of the program’s first three
program years (1998 – 2000) from schools and libraries in each of the 50 states,
the District of Columbia, and most territories.

Concerns about the Schools and Libraries Program

The size and scope of the Schools and Libraries Program would by itself make it
a major program for the FCC and a significant area for risk of fraud, waste, and
abuse. This, coupled with the results of various oversight activities performed to
date, gives the OIG a great deal of concern about this program. Although
program oversight is clearly the responsibility of the Office of Inspector General,
                                       3
         Oversight of the Universal Service
                    Fund (USF)

much of the oversight activity to date has been performed under the direction of
USAC as part of the oversight program they have established pursuant to FCC
direction.

◊   In calendar year 2000, USAC contracted with a public accounting firm to
    conduct audits of eighteen (18) beneficiaries of funding from the first year of
    the Schools and Libraries program. Their audit resulted in a major
    investigation by the Federal Bureau of Investigation (FBI) and OIG
    representatives. The matter has been referred as a civil false claims suit to the
    Department of Justice, where it is under consideration. Additionally, the
    audit report disclosed weaknesses (ranging from regulatory non-compliances
    to computation errors) at 14 locations of the 17 beneficiaries reported on and
    $8 million in inappropriate funding disbursements.

◊   Building on the work done last year, USAC has contracted to conduct audits
    at twenty-two (22) beneficiaries this calendar year. The results of this audit
    are currently under review by USAC and the Wireline Competition Bureau
    (WCB) of the FCC. The preliminary results indicate there may be findings at
    nearly all locations including several millions of dollars in inappropriate
    disbursements and unsupported costs.

The oversight program established by USAC has provided useful information
regarding beneficiary compliance with program rules and requirements. In
addition to the audit conducted last year that resulted in a criminal investigation at
one beneficiary, USAC has referred numerous allegations of fraud by program
recipients and service providers to our office. The work performed to date
provides information regarding compliance by those recipients where audits are
conducted. However, it is our opinion that the scope of USAC’s program,
conducting a very small number of audits in a program with in excess of 30,000
applicants per year, does not provide the Commission with adequate insight on
program-level compliance by program beneficiaries. Therefore, we have
concluded that additional audit work is required to provide a reasonable level of
assurance that beneficiaries are complying with program rules and that program
controls are adequate to prevent and detect fraud, waste, and abuse. Based on
that conclusion, we have undertaken several actions to improve the oversight of
the program. We have worked with USAC, WCB, OGC and other offices in the
Commission to ensure our approach is fully coordinated and logical.


                                        4
         Oversight of the Universal Service
                    Fund (USF)

During fiscal year 2001, we worked with Commission representatives as well as
with the Defense Contract Audit Agency (DCAA) and USAC, to design a nation-
wide audit program that will provide the Commission with programmatic insight
into the compliance with rules and requirements on the part of program
beneficiaries and vendors. We have designed our program around two corollary
and complimentary efforts. First, we will conduct reviews on a statistical sample
of beneficiaries large enough to allow us to derive conclusions regarding
beneficiary compliance at the program level. Second, we have established a
process for vigorously investigating allegations of fraud, waste, and abuse in the
program.

Due to obstacles that will be addressed later in this section, we have as yet been
unable to implement a systematic program of oversight. To counteract the
impact of these obstacles, we have undertaken several action plans.

◊   We requested and obtained auditors from the WCB on a temporary detail to
    conduct beneficiary audits. These audits of 26 program beneficiaries are still
    in process, but preliminary results indicate potential irregularities at many
    locations that may result in potential fund recoveries and further referrals for
    investigation.

◊   In addition to the reviews and investigations in which we are currently
    involved, we have had discussions with other offices in the IG community
    and federal audit agencies to explore areas where we can coordinate audit
    effort and work together.

    −   The Department of Education OIG has several audits of grant recipients
        that are also e-rate beneficiaries (Puerto Rico, Virgin Islands) and we
        believe that the Schools and Libraries Program overlaps with the
        Education programs and makes use of the same management control
        systems. We are coordinating with the Education OIG to determine
        where we can work together to provide effective oversight of federal
        funds. Additionally, they have indicated that an intergovernmental audit
        working group (formed by GAO and including representatives from
        federal, state, and local offices of inspector general) may be interested in
        performing e-rate audit work.

    −   We are also coordinating with the Department of Interior OIG for them to
        provide oversight on a reimbursable basis of e-rate funding beneficiaries at
                                       5
         Oversight of the Universal Service
                    Fund (USF)

       the Bureau of Indian Affairs and Indian reservation schools.

To implement the investigative component of our plan, we have established a
formal working relationship with the Governmental Fraud Unit of the Federal
Bureau of Investigation (FBI). We have established a process for forwarding
allegations of fraudulent activities to a dedicated program manager at FBI
Headquarters who reviews the allegations and forwards them to the appropriate
field office for investigation. We have assured the FBI that our office will
provide any audit expertise needed to support these investigations.

◊   At this time, we are tracking 22 investigations being performed by the FBI
    and several local law enforcement agencies and we are providing direct audit
    support to several of these investigations using OIG staff and public auditors
    under contract.
Obstacles to Implementation

Our nation-wide oversight program will allow us to determine, with a reasonable
level of assurance, that beneficiaries are complying with program rules and that
controls are adequate to prevent and detect fraud, waste, and abuse. However,
although we have made significant progress, many obstacles to full
implementation of our oversight program remain. These obstacles include (1)
disagreement regarding the nature of the fund and (2) lack of resources to provide
effective oversight.

Although it is generally agreed and widely recognized that the universal service
program is a federal program, there is considerably less agreement that USF is
“public money” or federal funds. The USF is included in the United States
Budget as a special fund but it is maintained in accounts outside the Treasury and
is administered by a not-for profit corporation under the direction of the FCC.

Confusion and disagreement regarding the nature of the USF has profoundly
affected program oversight. Our first indication that this issue would impede our
ability to perform program oversight came as a result of an investigation that was
referred to our office in August 2000. In January 2001, we presented a $3.8
million civil false claims matter to the Department of Justice (Justice) related to
this investigation. Our presentation of this matter was the result of a six-month
investigation jointly conducted with the FBI. The case is on hold pending
resolution of the federal funds issue.
                                       6
         Oversight of the Universal Service
                    Fund (USF)


Frequently in our discussions with the FBI, both at FBI headquarters and at field
offices, the issue of the nature of the USF is discussed. Although we have been
recently assured that the Governmental Fraud Unit is satisfied that this program
is within their jurisdiction, discussion of the nature of the USF is a recurring
theme. It has been our impression that federal law enforcement is going to be
reluctant to dedicate resources to this program until this issue is resolved. The
final position taken by Justice on the nature of the USF will have far reaching
consequences to other investigations and, in fact, may jeopardize our ability to
work with federal law enforcement to investigate fraud in this program.

In addition to complicating our relationship with federal law enforcement, this
issue has made it difficult to coordinate interagency and intergovernmental audit
coverage for areas of mutual interest.

◊   We worked with the DCAA to develop our audit program and expected
    DCAA to perform audits on a reimbursable basis. In fact, the scope of our
    discussions included field offices expected to participate in the program,
    processes for managing reports and work products, and arrangements for a
    training class to have been held prior to the kick-off of the program. DCAA
    declined to participate in the audit program at the last minute, citing resource
    issues and a need to “re-focus” on their mission. We believe that concerns
    about the nature of the USF may have also contributed to their decision.

◊   Within the past several months, we have met with representatives from the
    Department of the Interior (DOI) Office of Inspector General (OIG) and
    with representatives from the OIG at the Education Department (Education).
    Both of these organizations have expressed an interest in performing audits
    on a reimbursable basis and/or coordinating audit work in areas of mutual
    interest. However, both the DOI and Education have expressed concern
    about the nature of the USF.

In addition to obstacles related to the nature of the USF, we have been impeded
by difficulties in obtaining access to the resources necessary to establish an
effective oversight program. Most of our difficulties stem from the fact that the
Commission does not have the statutory authority to use the USF to fund the
cost of Commission operations, including program oversight. Any option for
obtaining resources using USF funding creates an appearance of the Commission
                                       7
         Oversight of the Universal Service
                    Fund (USF)

augmenting its appropriation. Although we believe that it is appropriate to utilize
the Universal Service Fund to fund our oversight program, we are proceeding
carefully and are working closely with the Commission’s Office of General
Counsel (OGC) to ensure that any action taken will be in accordance with federal
appropriations law.

◊   We have initiated discussions with USAC to obtain additional, outside audit
    resources under a contract managed by the OIG and paid from the USF. We
    are working with representatives from the Commission’s Office of Managing
    Director (OMD) and OGC to construct a contract that will meet our needs
    without violating federal appropriations law or creating the appearance that
    we are augmenting the Commission’s appropriation.

◊   We are meeting with other federal Offices of Inspector General to discuss the
    availability of audit resources to perform beneficiary audits on a reimbursable
    basis. However, several agencies have expressed concerns about accepting
    payment via any method except Treasury transfer, as is the usual practice for
    interagency work. There has been some discussion about whether a three-
    way interagency agreement (FCC, USAC, and other federal agency) will be
    acceptable. Unfortunately, this is creating difficulties in obtaining audit
    resources from other federal agencies. Both OIG counsel and the OGC are
    working on aspects of this issue.

As we have stated, we believe it is appropriate and consistent with applicable
regulations to utilize the Universal Service Fund to fund our oversight of the
Schools and Libraries Program; however, at this time the FCC OGC is not
sufficiently comfortable with the use of USF funds for this purpose. Because of
the difficulties we have experienced related to the use of the USF, we have
considered the use of appropriated funding and have discussed this option with
FCC management. We realize that the anticipated cost of the oversight program
(estimated at between $2 million and $6 million not including the cost of audit
support to investigations) would require significant shifting of resources from
other Commission programs and operations.

While we have been working to obtain audit resources, our entire program audit
staff, comprised of 2 full time equivalent (FTE) positions, has been dedicated to
this program. This has severely impacted our ability to perform other planned
program audit work and will continue to do so for the foreseeable future. We
                                       8
         Oversight of the Universal Service
                    Fund (USF)

estimate that the audit portion of our nation-wide Schools and Libraries Program
will require approximately 15 FTE positions (based on a statistical analysis of the
program year 2 universe).

Conclusions
In conclusion, we would like to emphasize that we are addressing oversight of the
Schools and Libraries Program on all fronts and will continue to do so. Despite
obstacles and the impact this effort has had on other aspects of our annual audit
plan, we believe we have made significant progress toward ensuring the program
is protected from fraud, waste and abuse. However, our oversight program will
be incomplete and “ad hoc” in nature until the federal funds issue and difficulties
in obtaining and funding sufficient audit resources are resolved.




                                       9
                               Audits
I. Financial statement audits provide reasonable assurance about whether the
   financial statements of an audited entity present fairly the financial position,
   results of operations, and cash flow in the conformity with generally
   accepted accounting principles. These financial related audits are used to
   determine whether financial information is presented in accordance with
   established or stated criteria and also to determine whether the entity’s
   internal control structure over financial reporting and/or safeguarding
   assets is suitably designed and implemented to achieve the control
   objectives.

              A. Fiscal Year 2001 Financial Statement Audit

                      This audit is being performed as part of our continuing effort
                      to support management efforts to align the FCC’s financial
                      accounting and reporting systems with applicable accounting
                      principles and standards, Federal laws and regulations, and
                      policy guidance. This is important both internally to the
                      Commission’s operations and necessary in support of the audit
                      of the Consolidated Financial Statements of the United States.
                      The Department of the Treasury requests “non-CFO” agencies
                      such as the FCC to annually verify financial data submissions
                      recorded in its Federal Agencies’ Centralized Trial-Balance
                      System II (FACTS). In response to this request, the FCC
                      prepares financial statements in accordance with Generally
                      Accepted Accounting Principles (GAAP) for the Federal
                      Government to facilitate verification of its FACTS
                      transmissions.

                      The objective of this audit is to provide an opinion on the fiscal
                      year 2001 financial statements. With the assistance of an
                      independent public accounting firm, the OIG plans to continue
                      initiatives to address reengineering financial management at the
                      FCC. Specific tasks will include performing procedures
                      necessary to comply with OIG audit and verification
                      requirements from OMB and the Department of the Treasury,
                      respectively. Follow-up procedures will address any identified
                      material weaknesses and reportable conditions from the fiscal
                      year 2000 audit.

                                          10
                                  Audits
                  Completed Work

                  In conjunction with the fiscal year 2001 Consolidated Financial
                  Statement Audit, the OIG issued Agreed-Upon Procedures
                  Reports on the Federal Communications Commission and
                  Universal Service Fund Reporting Entity’s Final Account
                  Groupings Worksheet (AGW) in accordance with Treasury
                  Financial Manual, Transmittal Letter No. 602, Part 2, Chapter
                  4000, Section 4050 – Account Groupings Worksheet Process.
                  Additionally, the OIG submitted its Agreed-Upon Procedures
                  Report for the Federal Communications Commission Federal
                  Intragovernmental Activity and Balances in accordance with
                  Chapter 4000, Section 4030.80 – Federal Intragovernmental
                  Transactions Process. All three reports were submitted to the
                  Office of Management and Budget, the General Accounting
                  Office, and the Department of the Treasury per the Treasury
                  Financial Manual.

                  Open Issues

                  On March 22, 2002, the OIG provided a draft Independent
                  Auditor’s Report on Internal Control and draft Independent
                  Auditor’s Report on Compliance with Laws and Regulations to
                  FCC management for comment and review. The OIG expects to
                  issue the Independent Auditor’s Reports, which include the audit
                  opinion, in April 2002.

II. Performance audits are systematic examinations of evidence for the
    purpose of providing an independent assessment of the performance of a
    government organization, program, activity, or function in order to provide
    information to improve public accountability and facilitate decision-
    making by parties with responsibility to oversee or initiate corrective
    action. The OIG performs two types of performance audits, economy and
    efficiency, and program audits.

       A. Contract audits were initiated in fiscal year 2000 out of a concern that
          FCC was receiving a fair return on contractors’ money spent. Each year
          funds are set aside to ensure a reasonable sampling of contractors’
          money and are audited on a spontaneous basis to provide assurance that
          contractors’ costs are being adequately controlled.

                                        11
                  Audits

1. Report on Audit of International Transcription Services,
Inc. Revised Request for Equitable Price Adjustment (REA)
Under Contract No. FCC 96-11 (Report No. 01-AUD-10-39),
November 13, 2001

The objective of this audit was to determine whether the books
and records of International Transcription Services, Inc. supported
each element of the proposal and that the costs were acceptable as
a basis for negotiation. It was performed under our interagency
agreement with the Defense Contract Audit Agency (DCAA).

As a result of the review, we concluded that the revised equitable
adjustment claim was not prepared in accordance with the
appropriate provisions of FAR and the contract. Because the
inadequacies were considered significant, we concluded that the
revised equitable adjustment claim was not an acceptable basis for
settlement.

Reports on Audits of Labor Charging and
Timekeeping Practices
Labor costs represent the most significant element of cost charged
to Commission contracts. We perform audits of contractor labor
charging and timekeeping practices to determine whether the
policies, procedures, and internal controls are well defined and
reasonable in concept and to determine if they are being effectively
implemented by contractor personnel to ensure the timely and
accurate recording, distribution, and payment of labor costs. To
accomplish these audit objectives, auditors from the DCAA
performed unannounced floor checks of contractor employees.
DCAA auditors collected and examined contractor timesheets and
interviewed selected contractor personnel.

2. Report on Audit of Labor Charging and Timekeeping
Practices of Digital Systems Group (Report No. 01-AUD-12-
53), October 12, 2001

The objective of this review was to evaluate the labor charging and

                        12
                  Audits

timekeeping practices of Digital Systems Group (DSG). Auditors
collected timesheets and interviewed selected DSG employees and
verified employees’ labor charges to the contractor’s labor
distribution report. The floor check disclosed no significant
deficiencies in the contractor’s timekeeping or labor system.

3. Report on Audit of Labor Charging and Timekeeping
Practices of NOVA Technology, Inc. (Report No. 01-AUD-12-
50), November 9, 2001

The objective of this review was to evaluate the labor charging and
timekeeping practices of NOVA Technology, Inc. (NOVA). The
floor check disclosed no significant deficiencies in the contractor's
timekeeping or labor system. However, as a suggestion to improve
the system, we recommended that NOVA require all of its
subcontract employees to log their time in the FCC’s clock system.
We stated that this would increase Commission confidence in labor
charges submitted by NOVA employees.

4. Report on Audit of Labor Charging and Timekeeping
Practices of AAC Associates, Inc. (Report No. 01-AUD-12-49),
December 3, 2001

The objective of this review was to evaluate the labor charging and
timekeeping practices of AAC Associates, Inc. (AAC). Our review
disclosed that a significant number of those AAC employees that
were floor checked failed to keep their timesheets on a current
basis. We notified AAC of these deficiencies and recommended
that AAC emphasize the importance and requirement for its
employees to comply with proper timekeeping procedures. We
also requested that AAC provide a written response to these
findings and detail the actions they intend to take that will ensure
they maintain an adequate timekeeping system. In their response,
AAC described the corrective actions they had implemented in
response to our findings.




                        13
                Audits

5. Report on Audit of Labor Charging and Timekeeping
Practices of DynCorp Information & Enterprise
Technology, Inc. (Report No. 01-AUD-12-52), December 3,
2001

The objective of this review was to evaluate the labor charging
and timekeeping practices of DynCorp Information & Enterprise
Technology, Inc. (DynCorp). Our review disclosed that a
significant number of those DynCorp employees and
subcontractor personnel floor checked at the FCC’s Gettysburg
and Washington, D.C. headquarters facilities failed to keep their
timesheets on a current basis. We notified DynCorp of these
deficiencies in a letter to DynCorp’s Chief Financial Officer and
recommended that DynCorp emphasize the importance and
requirement for its employees and subcontractor personnel to
comply with proper timekeeping procedures. We also requested
that the contractor provide a written response to our findings
and identify the actions that they intend to take to ensure that
they maintain an adequate timekeeping system. In their
response, DynCorp provided a detailed description of the
corrective actions that they had implemented to address our
findings.

6. Report on Audit of Labor Charging and Timekeeping
Practices of Vistronix, Inc. (Report No. 01-AUD-12-51),
December 18, 2001

The objective of this review was to evaluate the labor charging
and timekeeping practices of Vistronix, Inc. (Vistronix). Our
review disclosed that a significant number of those Vistronix
employees that were floor checked failed to keep their timesheets
on a current basis. We notified Vistronix of these deficiencies
and recommended that Vistronix emphasize the importance and
requirement for its employees to comply with proper
timekeeping procedures. We also requested that Vistronix
submit a written response to these findings and detail the actions
they intend to take that will ensure they maintain an adequate
timekeeping system. In their response, Vistronix provided a
description of the corrective actions they had implemented.

                      14
                              Audits

B. Program audits assess whether the objectives of new, or ongoing programs
are proper, suitable, or relevant and also assess compliance with laws and
regulations applicable to the program. This particular type of audit also serves
to determine whether management has reported measures of program
effectiveness that are valid and reliable.

               1. Report on Government Information Security Reform
               Act Evaluation – Findings and Recommendations (Report
               No. 01-AUD-11-43), November 29, 2001

               The Government Information Security Reform Act (Security
               Act), passed last year, focuses on the program management,
               implementation, and evaluation aspects of the security of
               unclassified and national security systems. The act requires
               annual agency program reviews and annual independent
               evaluations for both unclassified and national security programs.
               In accordance with the Security Act, the OIG contracted with
               KPMG, LLP to perform the independent evaluation as required
               by the act.

               The purpose of this review was to perform the independent
               evaluation of FCC’s information security program and practices
               to ensure proper management and security for the information
               resources supporting the agency’s operations and assets as
               required by the act. This examination included testing the
               effectiveness of security controls for an appropriate subset of
               the Commission’s systems. A review of the Commission’s
               security policies, security architecture, business continuity,
               security capital planning, critical infrastructure, and security
               program planning and management was also completed during
               this examination.

               The independent evaluation identified sixteen (16) findings, or
               areas for improvement, in the FCC’s information security
               management, operational and technical controls. Three (3) of
               the findings were determined to be high-risk, which if exploited,
               could cause business disruption. Thirteen (13) were determined
               to be medium risk, which in conjunction with other

                                    15
                   Audits

events could cause business disruption, if exploited.

2. Report on Workplace Violence Prevention at the FCC: Risk
Assessment, January 15, 2002

In fiscal year 2000, we determined that workplace violence was an
aspect of FCC policy that was in need of review. Workplace violence
has gained attention in recent years as evidence accumulates about its
frequency and impact. For example, in 1998, the Bureau of Labor
Statistics recorded more than 700 homicides at workplaces in the
United States. Homicides are the second leading cause of fatal
employment injuries. The horrific events of September 11th, 2001
have only served to heighten the need to assess our practices for
protecting employees and responding to incidents of workplace
violence.

The objectives of this risk assessment were to evaluate the nature of
risks faced by employees at FCC, to evaluate the existing safeguards in
place to protect FCC employees, and to identify high priority actions
the FCC should take to further protect its people. Our original
intention in performing this review was to perform a risk assessment.
We obtained the services of a team of technical experts in the areas of
workplace violence, physical security, and information technology
security and directed them to assess the security posture of the
Commission and compare that posture to best practices in other
government agencies and industry. However, during the course of the
assessment, we identified areas of the Commission’s workplace
violence program where immediate improvements could be made. As
a result, we developed observations and recommendations that will be
tracked and monitored in the same manner as audit findings.

The Commission has taken several positive steps to address the safety
and security of its employees, especially after the recent terrorist
attacks. However, based on the results of the risk assessment, we
concluded that the Commission: 1) does not have a comprehensive
workplace violence prevention program; 2) lacks an adequate process
to collect and analyze data on workplace violence issues; and 3)
should implement improvements to address vulnerabilities in the
physical security at Headquarters and field sites. We identified sixteen

                        16
                Audits

(16) recommendations that will improve the Commission’s
workplace violence prevention program when fully
implemented. The Commission concurred with all of the
reported observations (concurred in part on one observation)
and provided a corrective action plan to address the
observations.


Work-In-Process

Audit of Auction Budget and Financial Management
Process

The Commission carries on budgeting and financial
management activities within the Auctions Division of the
Wireless Telecommunications Bureau and the Financial
Management Division (FMD) of the Office of the Managing
Director. The objectives of this review are to identify any
duplicative activities, evaluate the effect of identified duplicative
activities, and recommend changes for those activities that
adversely effect Commission operations.

Audit of Loan Portfolio and Related Activity

Originally, the management of the auction loan portfolio was
performed by the Commission. In August 2000, the
Commission contracted out this activity. The objectives of this
review are to: (1) document the loan service provider’s role; (2)
assess the Commission’s transition to the new loan service
provider; and (3) review the Commission’s implementation of
its Revenue Accounting and Management Information System
(RAMIS) modules that impact the loan portfolio.

Follow-up Audit of Consumer Center Information
Technology (IT) Security

The objective of this review is to follow-up on specific findings
identified in our June 21,2000 report entitled “Report on Audit
of Computer Controls at the FCC National Call Center” to

                       17
                Audits

ensure that appropriate corrective actions have been
implemented.

Credit Card Usage

There has been much congressional interest in credit card use by
federal employees. In response to that interest we are
conducting a special review of travel card, purchase card, and
gas card usage by Commission employees.

Follow-Up Special Review of Web Page Accessibility

The object of this special review is to evaluate the status and
effectiveness of corrective actions that were instituted as a result
of recommendations contained in an OIG report entitled
“Special Review of Web Page Accessibility” that was issued on
January 19, 2001.

Audit of Auctions Application Controls

The Auctions Automations System (AAS) is responsible for the
processing of spectrum auctions conducted by the Commission.
AAS is the Commission’s system used to sell unused spectrum
to the public and includes a web-base component. AAS
replaces various manual systems to sell spectrum previously
used by the Commission.

The objective of this audit is to determine the extent and
effectiveness of application controls in AAS. We will evaluate
the efficacy of AAS information security controls, including
access controls, separation of duties, application audit trails, and
application change controls. We will use authorities such as the
Federal Information Systems Control Manual (FISCAM)
guidelines in our review.

Special Review of Workplace Violence: Data Collection

The objective of this project is to survey Commission
employees to determine perceptions about workplace violence

                      18
                            Audits
            issues including experiences of aggression/hostility, attitudes
            about the Employee Assistance Program, trust in the FCC to
            respond appropriately, knowledge about the Commission
            workplace violence prevention policy, and specific knowledge of
            weapons in the workplace. The results from this review will be
            used to assist the Commission in developing a procedure to
            systematically collect, record and analyze information on
            incidents of workplace violence.

Specialized Training and Activities

Staff members attended a meeting of the Electronic Crimes Task Force on
Stegonography and Law Enforcement. The meeting was hosted by the
United States Secret Service.

Staff members attended a training course entitled “Analytical Techniques for
Financial Investigations.” It was provided under the Multijurisdictional
Counterdrug Task Force Training Program.

Thomas Bennett serves on the Audit Executive Council.

Thomas Holleran serves as Liaison to the Executive Council of Integrity and
Efficiency (ECIE) and served on the ECIE task force on telecommuting.

Public Recognition

Steven A. Rickrode, Director of Financial Audits, received a FCC
Outstanding Customer Service Award in recognition of his excellence in
working with the Commission’s Financial Management Division on its
audited financial statement.

Report Availability

The OIG reports can generally be obtained via the internet from the OIG
web page located on the FCC website www.fcc.gov/oig. However, OIG
reports containing sensitive or proprietary information will be restricted to
specific individuals and organizations with a need to know the detailed
information.


                                  19
           SPECIFIC REPORTING REQUIREMENTS of
               the INSPECTOR GENERAL ACT

The following summarizes the Office of Inspector General response to the
twelve specific reporting requirements set forth in Section 5(a) of the
Inspector General Act of 1978, as amended.

1. A description of significant problems, abuses, and deficiencies relating to the
   administration of programs and operations of such establishment disclosed by
   such activities during the reporting period.

Refer to the section of the semiannual report entitled “Oversight of the Universal
Service Fund” on pages 2 through 9.

2. A description of the recommendations for corrective action made by the Office
   during the reporting period with respect to significant problems, abuses, or
   deficiencies identified pursuant to paragraph (1).

Refer to the section of the semiannual report entitled “Oversight of the Universal
Service Fund” on pages 2 through 9.

3. An identification of each significant recommendation described in previous
   semiannual reports on which corrective has not been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to prosecutive authorities and the prosecutions
   and convictions which have resulted.

One case associated with the Commission’s Universal Service Program has been
referred to the Department of Justice.

5. A summary of each report made to the head of the establishment under section
   (6)(b)(2) during the reporting period.

No report was made to the Chairman of the FCC under section (6)(b)(2) during
the reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by
the Office during the reporting period, and for each audit report, where applicable,
the total dollar value of questioned costs (including a separate category for the dollar

                                          20
           SPECIFIC REPORTING REQUIREMENTS of
                the INSPECTOR GENERAL ACT

value of unsupported costs) and the dollar value of recommendations that funds be
put to better use.

Each audit report issued during the reporting period is listed according to subject
matter and described in part II, above.

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the reporting period
is summarized within the body of this report.

8. Statistical tables showing the total number of audit reports with questioned costs
   and the total dollar value of questioned costs.

The required statistical table can be found at Attachment A to this report.

9. Statistical tables showing the total number of audit reports with recommendations
that funds be put to better use and the total dollar value of such recommendations.

The required statistical table can be found at Attachment B to this report.

10. A summary of each audit report issued before the commencement of the
reporting period for which no management decision has been made by the end of the
reporting period (including the date and title of each such report), an explanation of
the reasons such management decision has not been made, and a statement
concerning the desired timetable for achieving a management decision on each such
report.

No audit reports fall within this category.

11. A description and explanation of the reasons for any significant revised
management decision made during the reporting period.

No management decisions fall within this category.

12. Information concerning any significant management decision with which the
Inspector general is in disagreement.

No management decisions fall within this category.

                                        21
               OIG Audit Reports With Questioned Costs


Table I.

Inspector General Reports                           Number    Questioned   Unsupported
With Questioned Costs                                of Re-    Costs          Costs
                                                    ports


A. For which no management decision has been           4      $1,064,276     $278,701
   made by the commencement of the reporting
   period.

B. Which were issued during the reporting period.      1      $4,104,813        -



                  Subtotals (A + B)                    5      $5,169,089    $278, 701



C. For which a management decision was made            1          -             -
   during the reporting period.


   (i) Dollar value of disallowed costs                -         $600           -



   (ii) Dollar value of costs allowed                  -         $601           -



D. For which no management decision has been           4      $5,167,888     $278,701
   made by the end of the reporting period.


  Reports for which no management decision was         3      $1,063,075     $278,701
  made within six months of issuance.




                                             22
              OIG Audit Reports With Recommendations
                  That Funds Be Put To Better Use

Table II.

Inspector General Reports With                           Number of   Dollar Value
Recommendations That Funds Be Put To                      Reports
Better Use

A. For which no management decision has been made            -            -
    by the commencement of the reporting period.


B. Which were issued during the reporting period.            -            -



                 Subtotals (A + B)                           -            -



C. For which a management decision was made                  -            -
    during the reporting period.


    (i) Dollar value of recommendations that were            -            -
        agreed to by management.


        - Based on proposed management action.               -            -



        - Based on proposed legislative action.              -            -



    (ii) Dollar value of recommendations that were not       -            -
         agreed to by management.


D. For which no management decision has been                 -            -
   made by the end of the reporting period.


   For which no management decision was made                 -            -
   within six months of issuance.


                                              23
                  Investigations
OVERVIEW

Investigative matters pursued by this office are generally initiated as a result of
allegations received through the OIG hotline or from FCC managers and employees
who contact the OIG directly. Investigations may also be predicated upon audit or
inspection findings of fraud, waste, abuse, corruption, or mismanagement by FCC
employees, contractors, and/or subcontractors. Upon receipt of an allegation of an
administrative or criminal violation, the OIG usually conducts a preliminary inquiry to
determine if an investigation is warranted. Investigations may involve possible
violations of regulations regarding employee responsibilities and conduct, federal
criminal law, and other regulations and statutes pertaining to the activities of the
Commission. Investigative findings may lead to criminal or civil prosecution, or
administrative action.

The OIG also receives complaints from the general public, both private citizens and
commercial enterprises, about the manner in which the FCC executes its programs
and oversight responsibilities. All complaints are examined to determine whether there
is any basis for OIG audit or investigative action. If nothing within the jurisdiction of
the OIG is alleged, the complaint is usually referred to the appropriate FCC bureau or
office for response directly to the complainant. A copy of the response is also
provided to the OIG. Finally, matters may be referred to this office for investigative
action from other governmental entities, such as the General Accounting Office, the
Office of Special Counsel or congressional offices.


ACTIVITY DURING THIS PERIOD

Eleven cases were pending from the prior period. All of the eleven pending cases,
which involve the Commission’s Universal Service Fund (USF) program, were
referred to the Federal Bureau of Investigation (FBI) and three have since been closed
due to investigation by local authorities or the lack of evidence to warrant action by
the OIG and/or FBI. Twenty-three complaints were received during the reporting
period, of which thirteen are related to the USF program. The thirteen USF related
matters have been referred to the FBI or local law enforcement entities. Over the last
six months, in addition to the three USF related cases that were closed, seven other
cases were closed. As of March 31, 2002, a total of twenty-four cases are still pending,
twenty-one of which relate to the USF program. The OIG continues to monitor and
coordinate activities, as appropriate, regarding the USF related matters. Investigations
with respect to the other three non-USF related pending cases are ongoing.
Finally, in addition to case management, an internal assessment of the investigation

                                           24
                                         Investigations

program was conducted during the period. It was conducted in accordance with the
“Guide for Conducting Qualitative Assessment Reviews of the Investigative
Operations of Offices of Inspector General.” The guide was established by the
President’s Council on Integrity and Efficiency (PCIE) and the Executive Council on
Integrity and Efficiency (ECIE). As a result of the evaluation, appropriate revisions
were made to our internal investigative policies and procedures.


STATISTICS

Cases pending as of September 30, 2001 . . . . . . . . . . . . . . . . . . . . . . . . .11

New cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

Cases closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

Cases pending as of March 31, 2002 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


SIGNIFICANT INVESTIGATIVE CASE SUMMARIES

The OIG initiated an inquiry into allegations that Commission employees may have
abused Commission telephones by making personal long distance telephone calls.
Through investigation, this office was unable to establish sufficient evidence of
employee misconduct rising to the level to constitute abuse. Accordingly, the matter
was closed.

The OIG initiated inquiry into the matter of a missing emergency contact list. OIG
was unable to find sufficient basis that non-public information was improperly
released or disclosed and not merely misplaced. Accordingly, OIG found insufficient
evidence of misconduct and the matter was closed.

The OIG initiated inquiry into allegations of procedural improprieties in the granting
of a salary step increase for a Commission employee. Specifically, it was alleged that
the employee acted improperly in executing the authorization form for a salary
increase for which the employee was the recipient. The form approving the increase
was also executed by the bureau chief and the deputy bureau chief, both of whom
were supervisors of the employee. Through investigation, it was determined that as a
supervisor, the employee in question routinely was one of the signatories on the
salary increase forms. Further, it was determined that while the applicable personnel

                                                              25
                   Investigations
regulations required that a bureau or office chief approve salary increases, the
regulations did not specify who else was required to execute the form. Accordingly,
the OIG found insufficient evidence of employee misconduct and the matter was
closed.

The OIG initiated case inquiry into possible release of non-public information
concerning a notice of apparent liability that was under consideration by the
Commission. Specifically, it was alleged that information, contained in a draft
decision, concerning the approximate amount of the fine that was being considered
by the Commission in the matter was released to a member of the press. The
information appears not to have been published. The OIG was unable to find any
evidence that the draft document itself was given or shown to the reporter in
question. Other than the reporter’s own assertion that he had information
concerning the matter, the OIG was unable to find sufficient evidence to establish
that the source of the information for the reporter was from within the Commission.
Accordingly, the matter was closed.

The OIG conducted an inquiry into improper communication by a former
Commission employee with Commission staff in violation of post employment
restrictions of 18 U.S.C. Section 207. The alleged misconduct consisted of the
transmittal by the employee of a letter on an issue being considered by the
Commission. OIG determined that the former employee communicated with the
Commission in his personal and individual capacity and not as a representative of an
organization or another person. Accordingly, the employee’s conduct did not violate
the applicable post employment restrictions and the matter was closed.

The OIG initiated an inquiry into improper contact by an employee of the
Commission of personnel at a television network. In the course of the contact the
employee identified herself as a Commission employee. The inquiry was initiated to
determine if the employee’s conduct was improper and amounted to an abuse of
position in violation of applicable standard of conduct regulations. Through
investigation, the OIG determined that the employee had contacted the network for
the purpose of offering assistance from a personal perspective on a news item, not
related to Commission business. Further, the OIG determined that while the
employee’s employment did come up in the course of the conversation, it was only
raised for the purpose of demonstrating that the employee was not an extremist or
fanatic. Finally, it was found that the network personnel with whom the employee
spoke never thought that the employee was calling in her capacity as a Commission
employee, but only as a private citizen. Accordingly, the matter was closed due to
the lack of evidence of misconduct.

                                        26
                        Legislation
OVERVIEW

Pursuant to section 4(a)(2) of the Inspector General Act of 1978 (IG Act), as amended,
our office monitors and reviews existing and proposed legislative and regulatory items
for their impact on the Office of the Inspector General and the Federal
Communications Commission programs and operations. Specifically, we perform this
activity to evaluate their potential for encouraging economy and efficiency and
preventing fraud, waste, and mismanagement.


LEGISLATIVE ACTIVITY DURING THIS PERIOD

The Counsel to the IG continued to monitor legislative activities affecting the activities
of the OIG and the FCC.

During this period, this office continued to monitor those legislative proposals, which
directly or indirectly impact on the ability of Designated Federal Entity IGs to function
independently and objectively. Those specific proposals concerned proposals to
consolidate OIGs and to directly and/or indirectly draw distinctions between
presidentially – appointed IGs and Designated Federal Entity IGs, which may have the
effect of undermining the role of the latter.




                                          27
                                      IG Hotline
HOTLINE CALLS

During this reporting period, the OIG Hotline Technician received 734 hotline calls
to the published hotline numbers of (202) 418-0473 and 1-888-863-2244 (toll free).
The OIG Hotline continues to be a vehicle by which Commission employees and
parties external to the FCC can contact the OIG to speak with a trained Hotline
Technician. Callers who have general questions or concerns not specifically related
to the missions or functions of the OIG office are referred to the FCC National Call
Center (NCC) at 1-888-225-5322. Examples of calls referred to the NCC include
complaints pertaining to customers phone service and local cable providers, long-
distance carrier slamming, interference, or similar matters within the program re-
sponsibility of other FCC bureaus and offices.




 Hotline Calls Record
 Between October 1st and March 31
          Total 734 calls


                                 Referred to Consumer and
                                 Government Affairs Bureau
                                            635




                                                                                            Referred to Other Federal
                                                                                                    Agencies
                                                                                                        59


         Referred to Other FCC
                Offices                  Referred to Local/State        Referred to OIG Staff
                    8                     Government orPolice                     6
                                                   26




                                                                   28
                IG Hotline
Report Fraud, Waste or Abuse to:

     Office of the Inspector General
     Federal Communications Commission




                                 CALL
                       Hotline: (202)418 - 0473
                                  or
                          (888)863 - 2244
                          www.fcc.gov/oig


       You are always welcome to write or visit.




            Federal Communications Commission
                     Portals II Building
           445 12th St., S.W. - Room #2-C762
                            29
